OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
ALTERNATIVE DEVELOPMENT
PROGRAM EXPANSION,
SOUTH WEST

AUDIT REPORT NO. 5-306-10-011-P
JULY 29, 2010



MANILA, PHILIPPINES
Office of Inspector General

July 29, 2010

MEMORANDUM

TO:       	          USAID/Afghanistan Director, Earl W. Gast

FROM: 	              Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Alternative Development Program Expansion,
                     South West (Audit Report No. 5-306-10-011-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and included the comments in their entirety in
appendix II.

This report contains three recommendations to assist the mission in improving its management
and oversight of the Alternative Development Program Expansion, South West. On the basis of
the information provided by the mission in response to the draft report, we determine that
management decisions have been reached on all recommendations. A determination of final
action will be made by the Audit Performance and Compliance Division upon completion of the
planned corrective actions for recommendations 1, 2, and 3.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
                       P   P




Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 5 


Is USAID/Afghanistan’s Alternative Development Program

Expansion, South West, achieving its main goal of
counteracting illicit poppy cultivation by providing
alternative development programs and improved economic
opportunities in selected southern and western provinces?

     Poppy Reductions May Not Be
     Sustainable ................................................................................................................. 7

     Program Implementation Experienced
     Delays and Faces Future Challenges ....................................................................... 12

Evaluation of Management Comments ....................................................................... 18

Appendix I—Scope and Methodology......................................................................... 19

Appendix II—Management Comments........................................................................ 21

Appendix III—Table A-1. Indicators, Targets, and Actual Results for the First 100
  Days of the Program, First Year, and Life of Project Through
  December 31, 2009.................................................................................................. 24 

SUMMARY OF RESULTS

The production and trafficking of illicit narcotics pose a serious challenge to the Islamic
Republic of Afghanistan (Afghanistan). Narcotics revenues breed corruption at virtually
all levels of the Afghan Government and provide resources to the Taliban, drug lords,
and other terrorist groups. According to a 2009 U.N. report,1 123,000 hectares2 of opium
poppy were cultivated in 2009. Afghanistan produces 90 percent of the world’s illicit
opium, generating revenues equivalent to about 4 percent of Afghanistan’s $10.7 billion
gross domestic product in 2009. Of the total cultivation, 99 percent took place in seven
southern and western provinces: Helmand, Kandahar, Uruzgan, Day Kundi, Zabul,
Farah, and Badghis. To address this narcotics problem, the U.S. Government has
supported the Afghan Government’s counternarcotics strategy of providing incentives to
stop growing opium poppy through alternative development projects, supporting strong
disincentives in the form of provincial governor-led eradication, interdiction, and law
enforcement, and spreading the Afghan Government’s antinarcotics message through
public information activities (see page 3).

In March 2008, USAID/Afghanistan launched what was to become its Alternative
Development Program Expansion, South West (the program), by awarding a 2-year,
$55 million contract to Associates in Rural Development, Inc. (ARD). The objective of
the program was to counteract illicit poppy cultivation by providing alternative
development programs, improved economic opportunities, and diverse regional
economic growth. Activities during the first year of the program occurred in the southern
provinces of Helmand, Uruzgon, and Nimroz and the western province of Farah. In
January 2009, the mission increased the contract ceiling to $75 million and extended the
period of performance by 1 year. Through December 2009, the mission had obligated
$30 million and disbursed $25 million for program activities (see page 3).

The program made progress toward counteracting illicit poppy cultivation by providing
alternative development programs and improved economic opportunities in selected
southern and western provinces. According to the Afghanistan Opium Survey, the
collective decrease in 2009 poppy production in the provinces of Helmand, Uruzgan,
Nimroz, and Farah, which were covered by the program, was 42,852 hectares—an
approximate 32 percent decrease from 2008 levels. The decrease is attributable to such
factors as strong antipoppy messages from provincial governors, increased interdiction
activities, an overproduction of poppy in prior years that suppressed market prices, and
provision of alternative economic opportunities in targeted districts within each province
(see page 5).

The mission successfully provided alternative economic opportunities in the form of
cash-for-work projects, high-value agricultural activities, and business development
activities. Under the program, ARD completed 45 cash-for-work projects that included
road, canal, and market rehabilitations. One project provided employment to 220
workers, while another project targeted 30 disadvantaged women—mainly widows (see
page 6). In the area of high-value agriculture, the program assisted local farmers with

1
   United Nations Office of Drugs and Crime (UNODC), Afghanistan Opium Survey 2009,
  September 2009.
2
  A hectare is equivalent to 2.47 acres.


                                                                                         1
sales of produce totaling nearly $3.8 million dollars (see page 6). One of the program’s
business development activities helped the Farah Farmer’s Union, a cooperative of
8,700 growers, with identifying business opportunities and with developing the Farah
Agricultural Center, which will provide an all-inclusive hub for market expansion, value
chain3 development, training, and business development (see page 7).

Despite the program’s progress in addressing its main goal, two issues need to be
addressed. First, continued reductions in poppy cultivation may not be sustainable
because no follow-on alternative development program has been approved beyond
March 2011 and a critical southern province is not included in the current program. The
investment in agricultural programs may be wasted and economic gains received by the
local communities could disappear, potentially causing farmers to return to poppy
cultivation. Furthermore, erosion of the economic development gains under the program
could undermine the U.S. counterinsurgency strategy, which relies on sustained
economic development to stabilize conflict areas (see page 7).

Second, the program has experienced delays in implementation, partially due to security
issues. Further, changes in the mission’s business practices present possible future
challenges that could further delay program implementation if not properly managed
(see page 12).

This report contains three recommendations to overcome these issues, including
development of an implementation plan for follow-on alternative development activities
to cover critical southern and western provinces (see page 12) and improvements in
mission internal controls to manage changes in its business practices (see page 17).
USAID/Afghanistan’s comments will be included as appendix II to this report (see
page 21).




3
    Value chain development connects farmers, craftsmen, and other rural producers with specific
    markets and consumer demand.

                                                                                              2
BACKGROUND

According to the UNODC’s Afghanistan Opium Survey 2009, 123,000 hectares of opium
poppy were cultivated in 2009. Afghanistan produces 90 percent of the world’s illicit
opium, generating revenues equivalent to about 4 percent of Afghanistan’s $10.7 billion
gross domestic product in 2009. Of the total cultivation, 99 percent took place in seven
provinces in the southern and western regions, including the most insecure provinces in
the country. The seven main provinces for opium cultivating and harvesting were
Helmand, Kandahar, Uruzgan, Day Kundi, Zabul, Farah, and Badghis.

The production and trafficking of illicit narcotics pose a serious challenge to the Islamic
Republic of Afghanistan. According to the U.S. Department of State4 (DOS), narcotics
revenues breed corruption at virtually all levels of the Afghan Government while
providing resources to the Taliban, drug lords, and other terrorist groups. The UNODC’s
2009 survey reports growing evidence that some antigovernment elements in
Afghanistan are turning into narco-cartels. After years of collusion with criminal gangs
and corrupt officials, some insurgents are now opportunistically moving up the value
chain—not just taxing supply but also getting involved in producing, processing,
stocking, and exporting drugs. The impact of this expansion on the stability of
Afghanistan, and the ways and means to oppose it, require attention.

The U.S. Government’s strategy focuses on helping Afghanistan disrupt the opium-
based economy and strengthen the central government’s control over the country. To
address these objectives comprehensively, the U.S. Government has supported the
Afghan Government’s counternarcotics strategy of providing incentives to stop growing
opium poppy through alternative development projects, supporting strong disincentives
in the form of provincial governor-led eradication, interdiction, and law enforcement, and
spreading the Afghan Government’s antinarcotics message through public information
activities. The Bureau of International Narcotics and Law Enforcement Affairs staff at
U.S. Embassy/Kabul oversees the counternarcotics strategy and coordinates with
various U.S. and Afghan Government agencies.

In March 2008, USAID/Afghanistan launched its Alternative Development Program
Expansion, North and West, by awarding a 2-year, $55 million contract to Associates in
Rural Development (ARD), Inc., to implement the program in Balkh, Jawzjan, Farah, and
Ghor Provinces. The objective of the program was to counteract illicit poppy cultivation
by providing alternative development programs, improved economic opportunities, and
diverse regional economic growth. Subsequent modifications added the southern
provinces of Helmand, Uruzgan, and Nimroz and changed the name of the program to
the Alternative Development Program Expansion, South West, because of where
program activities are being implemented. Balkh, Jawzjan and Ghor Provinces were
effectively eliminated from the program.

In January 2009, the mission modified the contract to increase the contract ceiling to
$75 million and extended the period of performance by 1 year. Through December
2009, the mission had obligated $30 million and disbursed $25 million.
4
    From GAO Report No. GAO-05-575, June 2005



                                                                                         3
Appendix I contains a discussion of the audit’s scope and methodology.




                                                                 Map      of  the     Islamic
                                                                 Republic of Afghanistan
                                                                 showing     all     of    the
                                                                 provinces in the country.
                                                                 The shaded provinces
                                                                 represent       the      four
                                                                 provinces where program
                                                                 activities   were      being
                                                                 implemented during the
                                                                 period of the audit.




AUDIT OBJECTIVE

The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2010 annual audit plan to answer the following question:

   •	 Is USAID/Afghanistan’s Alternative Development Program Expansion, South
      West, achieving its main goal of counteracting illicit poppy cultivation by providing
      alternative development programs and improved economic opportunities in
      selected southern and western provinces?




                                                                                                 4
AUDIT FINDINGS

USAID/Afghanistan’s Alternative Development Program Expansion, South West (the
program), made progress toward achieving its main goal of counteracting illicit opium
poppy cultivation by providing alternative development programs and improved
economic opportunities in selected southern and western provinces. These activities in
turn contributed to reducing poppy cultivation. According to the UNODC report,
Afghanistan Opium Survey 2009, the collective decrease in 2009 poppy cultivation in the
provinces of Helmand, Uruzgan, Farah, and Nimroz, which were covered by the
program, was 42,852 hectares—a decrease of approximately 32 percent from 2008
levels. The decrease in poppy cultivation is attributable to such factors as strong
antipoppy messages from provincial governors, increased interdiction activities,
overproduction of poppy in prior years, which suppressed market prices, and alternative
economic opportunities provided to targeted districts within each province. Overall, the
poppy reduction resulted from all the pillars of the U.S. Government counternarcotics
strategy working successfully in concert. No one single pillar acting alone can affect
poppy reductions; however, the lack of progress in one does affect the combined impact
of all pillars on poppy production. The table below shows statistics on historical poppy
cultivation in provinces covered under the program.

                              Table 1. Poppy Cultivation Statistics
                                       2004–095 (Hectares)

                                                                               Percentage
     Province         2004     2005      2006      2007      2008     2009      Change
                                                                               2008–2009
     Farah            2,288   10,240     7,694     14,865    15,010   12,405         (17)
     Helmand         29,353   26,500    69,324    102,770   103,590   69,833         (33)
     Nimroz             115     1,690    1,955      6,507     6,203      428         (93)
     Uruzgan         11,080     2,024    9,703      9,204     9,939    9,224           (7)
     Total
     Program         42,836   40,454    88,676    133,346   134,742   91,890         (32)
     Coverage

Furthermore, the UNODC’s Afghanistan Opium Survey 2010, Winter Rapid Assessment
reports that cultivation in Farah and Nimroz Provinces is expected to cause a moderate
decrease in poppy cultivation, Helmand will remain stable, and Uruzgan will experience
a moderate increase.

Under the terms of the contract, Associates in Rural Development, Inc. (the contractor),
was expected to implement infrastructure development through cash-for-work projects,
high-value agricultural activities, and business development activities.      Activities
implemented successfully by the contractor under the program include:




5
    From United Nations Office of Drugs and Crime (UNODC), Afghanistan Opium Surveys for 2008
    and 2009.

                                                                                             5
•	 Cash for Work. As of December 2009, the program had completed 45 cash-for-
   work projects that included road, canal, and market rehabilitations. The contractor
   selected projects from the Farah Provincial Development Council in coordination with
   the Governor’s office, Rural Rehabilitation Department, and Irrigation Department.
   Once the project is selected, the contractor works with the local communities—those
   who benefit from the improvements—to identify local people to work on these
   infrastructure projects. For example, the contractor, in coordination with the Farah
   Governor, established a cash-for-work project in the province’s Lash Wa Juwayn
   District in response to a sandstorm that buried the district commercial center. The
   completion of this project affected 2,000 families in Lash Wa Juwayn and residents in
   40 villages across the district who were once again able to move their agricultural
   products to market and conduct business. The project also provided income to 220
   workers.

      Additionally, the contractor provided opportunities for women to be involved in the
      cash-for-work project. With assistance from the Farah Department of Women’s
      Affairs, the contractor created the Women’s Gabion Weaving Activity, which provided
      30 disadvantaged women (mainly widows) with work for 15 days each, weaving 350
      of the 1-square-meter panels for gabions that were later used in repairs of water
      diversion projects.

•	 High-Value Agriculture. As of December 2009, under its high-value agricultural
   projects, the program had trained over 11,000 farmers in new agricultural practices
   and in October through December 2009 had vaccinated over 13,000 animals while
   providing additional medical services to over 16,000 livestock. Additionally, since
   inception the program has assisted local farmers with sales of produce of nearly
   $3.8 million dollars, as detailed in Table 2. For example, 1,820 women in six Farah
   districts have received 90,500 chickens. Each woman received 50 chickens, 220
   kilograms of feed, a feeder, drinker, and battery lamp, and training in poultry
   management and basic accounting to promote future sustainability.

                        Table 2. Sales of Assisted Value-Chain Products
                         From Program Inception to December 31, 20096


                                                     Volume of Sales          Value of Sales
                      Commodity
                                                      (Metric Tons)           (U.S. Dollars)


       Wheat/cereal                                                   9,823           3,357,899

       Cucumber/vegetables                                              69               29,173

       Pullets/eggs                                                     73              194,072

       Other commodities                                              1,551             208,818

       Total                                                      11,516              3,789,962



6
    Amounts represent data verified during the course of the audit.

                                                                                               6
•	 Business Development Activities. As of December 2009, under its business
   development activities, the program has provided advance contracts to 112 men and
   30 women for sale of their agricultural products. Specifically, in Helmand Province,
   112 farmers were given advance contracts for the cultivation and sale of paprika.

   Additionally, the contractor has provided the Farah Farmer’s Union, a cooperative of
   8,700 growers, with capacity-building support, such as assistance in identifying
   business opportunities and in developing the Farah Agricultural Center. The Farah
   Agricultural Center will provide an all-inclusive hub for market expansion, value-chain
   development, training, and business development.




                 Dried paprika harvested in Helmand Province in fall 2009.
                 Paprika is an alternative crop promoted by the program.
                 Photo courtesy of ARD.


However, despite these gains, the sustainability of these results is questionable, and the
program must overcome additional barriers.

Poppy Reductions May Not Be
Sustainable
Summary. The purpose of the program is to counteract illicit poppy cultivation by
providing alternative livelihood programs, improved economic opportunities, and diverse
regional economic growth in selected provinces. Furthermore, a key pillar of the U.S.
Government’s counterinsurgency strategy involves economic development of areas
secured by the U.S. military. Although gains have been made in some targeted
southern and western provinces to reduce poppy cultivation, these gains may not be
sustainable because (1) no follow-on alternative development activity has been
approved beyond March 2011; (2) a critical southern province is not included in the
current program; (3) access to markets for cereal crops (such as wheat) is not
guaranteed, nor is stability of commodity prices; (4) success of programs outside the

                                                                                        7
mission’s control may affect poppy cultivation and harvest; and (5) the availability of
water is uncertain. The impact of not having a follow-on program can be measured in
terms of (1) loss of program investment in long-term projects totaling $7 million, (2) loss
of economic gains for Afghans including jobs, (3) potential increase in poppy cultivation,
and (4) a negative effect on the U.S. Government’s counterinsurgency policy.

The purpose of the program is to reduce illicit poppy cultivation by providing alternative
livelihood programs, improved economic opportunities, and diverse regional economic
growth in the provinces of Farah, Helmand, Nimroz, and Uruzgan. According to the
mission the intent of the program is to produce sustainable gains in reducing poppy.
Furthermore, one pillar of the U.S. Government’s counterinsurgency strategy involves
economic development of secured areas. As part of the strategy, USAID can assist U.S.
Government counterinsurgency efforts by fostering economic growth through
development assistance, which can mitigate the economic distress that often
exacerbates insurgency. The strategy’s second pillar is security, composed of military
and policing activities while incorporating individual security, protecting human rights,
and promoting the effective functioning of public safety and civil legal institutions. The
third pillar is a political focus on strengthening the capability of the government to
respond to the needs of its people. None of these pillars is independent—an activity
may be characterized as belonging within one pillar, but it often has an immediate effect
on other pillars.

Although gains have been made in some targeted southern and western provinces
under the program, these gains may not be sustainable because (1) no follow-on
alternative development activity has been planned beyond March 2011; (2) a critical
southern province is not included in the current program; (3) access to markets for
cereal crops (such as wheat) is not guaranteed, nor is stability of commodity prices; (4)
success of programs outside the mission’s control may affect poppy cultivation and
harvest; and (5) the availability of water is uncertain. A detailed discussion of each issue
follows.

•	 Lack of a Follow-on Program. The critical southern and western poppy-producing
   provinces are covered primarily by two USAID agricultural programs—the
   Afghanistan Vouchers for Increased Production in Agriculture (AVIPA) Program and
   the Alternative Development Program Expansion, South West—that end in the fall of
   2010 and spring 2011, respectively. AVIPA distributes agricultural inputs and is not
   seen as an alternative development program. Further, no approved alternative
   development program is ready for implementation, and a 5-year, estimated
   $370 million program that was close to contract award was canceled because the
   Special Representative to Afghanistan and Pakistan did not support it. According to
   the mission, as early as April 2008 it had begun the process of planning for a follow-
   on contract to cover the critical poppy-growing provinces in the south and west, to
   include Farah, Nimroz, Helmand, Kandahar, Uruzgan and Zabul. This follow-on
   program intended to take over the activities under the expiring Alternative
   Development Program, South West, and the now-completed Alternative
   Development South Program.

   Beginning in April 2009, as required by the Special Representative, the mission
   submitted all new and existing programs to the Representative for approval,
   including the follow-on alternative development program. During the review process,
   the Special Representative expressed concern over the award of a contract to a

                                                                                          8
   U.S.-based contractor, including the length and value of the award. The mission
   attempted to explain to the Representative the Afghan Government’s incapacity to
   administer a U.S.-financed Government of Afghanistan program, which the
   Representative preferred. Finally, the Special Representative was also concerned
   that too much emphasis was placed on agribusiness development instead of
   providing food security.

   After working 14 months on the competitive procurement process, and considering
   the Special Representative’s disapproval of the program, the mission decided to
   cancel the procurement on June 14, 2009. According to the mission, in the end the
   Special Representative talked about a “New Deal” for Afghan farmers with
   subsidized inputs, possible price supports, and subsidized agricultural financing,
   whereas the follow-on alternative development program the mission had proposed
   was designed to support market-based value chains that could independently
   compete with poppy and provide a longer-term economic incentive for farmers.

   According to the mission, to achieve long-term economic development, alternative
   development programs are required to develop or reestablish high-value agricultural
   crops in poppy provinces. The mission is evaluating its options for the southern and
   western provinces and has several draft concept proposals under review.

•	 Critical Southern Poppy Province Not Covered. Kandahar Province (the second
   largest poppy-producing province in 2009), is not covered by an alternative
   development program, although it is covered by AVIPA and receives agricultural
   inputs (wheat seeds) According to the mission, significant alternative development
   activities in Kandahar ended in the fall of 2007. As discussed above, the follow-on
   program that was to cover Kandahar was canceled.

•	 Access to Markets and Instability of Cereal-Crop Prices. Additional obstacles to
   sustained reductions in poppy harvests are the lack of access to markets and the
   instability of cereal-crop prices; some fear these problems will cause farmers to shift
   back to poppy cultivation. For example, in the spring of 2009, farmers in Farah
   Province experienced a bumper wheat harvest, estimated by the contractor to be
   approximately 147,000 metric tons. The bumper crop resulted from above-average
   precipitation and significant distribution of wheat seeds by the U.S. Government
   through various programs, including the contractor’s program. However, the farmers
   could not take the harvest to market because of deteriorating security, and the value
   of wheat was depressed by the unexpectedly higher production throughout
   Afghanistan, leaving many farmers unhappy and unable to sell their harvest. The
   contractor estimates that approximately 25,000 metric tons of wheat went unsold in
   Farah Province in 2009.

   Farmers could not take their wheat to traditional markets because the main road
   leading to the markets in Herat and other provinces was not secure. According to
   the contractor, one road leading out of Farah contained many checkpoints, which
   required bribes. The farmers would not use the road because they would have to
   pay more in bribes than their crops were worth. According to the provincial
   reconstruction team commander in Farah, these roads have recently been cleared of
   insurgents, and access to markets in Herat should improve for the next harvest in
   2010; however, the roads into Helmand and Kandahar Provinces will still be
   problematic.

                                                                                        9
   Because fluctuating harvests cause price instability for cereal crops, the mission’s
   Office of Agriculture encourages the use of other plants such as fruit trees and grape
   vines, which represent a more permanent alternative crop to poppy. However,
   political pressure from external sources, such as the Embassy, military, and host
   government national and local leaders, has resulted in wheat seed distributions.

   Under the program the contractor is no longer asked to provide wheat seeds to
   farmers and is pursuing more permanent alternatives. However, wheat seed
   distribution by third parties occurred in the winter of 2009, and if there is another
   bumper crop in 2010, some farmers may switch back to poppy.




            Wheat field in Farah Province benefiting from water from the Tewask Canal
            Rehabilitation Project. Photo by USAID OIG auditor.

•	 Unknown Impact of Other Counternarcotics Programs. Key stakeholders noted
   that sustained reductions in poppy cultivation require help from programs beyond
   alternative development activities. Affecting the supply side of poppy production
   requires successful, governor-led eradication and interdiction measures targeting
   large-scale poppy-producing drug lords. Decreasing the demand for poppy requires
   strong antipoppy messages from the provincial governors and successful
   implementation of drug treatment centers. Continued success of these other
   programs is beyond the mission’s control.

•	 Lack of Water. According to the mission and contractor, the sustainability of poppy
   reductions and success of alternatives depend on the availability of water. While
   Helmand Province has summer water supplies from the Kajaki dam for year-round
   irrigation, Farah Province does not have a similar water source. Farah depends
   upon spring snow melts to replenish the watersheds and aquifers, But the
   watersheds supply water for only one planting season in early spring. The program


                                                                                        10
   is conducting groundwater studies to identify areas where a summer planting season
   and alternative crops could be introduced.

Without a follow-on program—and in light of other issues discussed— (1) the
investment and economic gains made under the program may be lost, (2) poppy
cultivation may increase, and (3) the U.S. Government’s counterinsurgency policy may
be weakened.

In terms of program investment, the program supports several projects that will require
follow-on activities beyond the contract completion date of March 2011. For one project,
the contractor has budgeted approximately $1.2 million for the purchase of fruit trees
and grape vines for distribution to 1,240 farmers in Helmand Province as alternative
crops. According to the mission and the contractor, the trees generally begin to bear
fruit and become profitable in 3 to 5 years, and followup with the farmers is required to
ensure proper care and maintenance of the saplings. According to the contractor,
followup beyond the length of the contract would be required. In another project, the
program inherited a poultry farm in Helmand Province from a predecessor alternative
development program.           Under the prior program, the mission had invested
approximately $1 million in equipment for the poultry farm in 2009. Under the current
program, the contractor issued a subcontract for $4.7 million to continue development of
the farm. Because of complications under the predecessor program, the farm was built
on land belonging to the Ministry of Agriculture, Irrigation, and Livestock (MAIL), and
both the contractor and the mission expressed concerns over MAIL’s ability to run the
farm or its authority to turn over the farm and equipment to a private concern. Without a
follow-on program to take over long-term projects such as these, the investment of
nearly $7 million may be wasted.

In addition, without a follow-on program to monitor long-term development projects such
as the fruit tree distribution and the poultry farm, economic gains by Afghans could be
eliminated. For example, once the fruit trees and grape vines become productive, the
contractor estimates that income generated would range from $19,000 to $36,000 per
hectare, depending on the type of crop. Furthermore, a feasibility study of the poultry
farm estimated that in the fourth year of existence the farm would generate an estimated
net income of $289,000. Finally, the poultry farm currently employs 30 Afghans.
Without proper followup, these economic gains could vanish.

Furthermore, if alternative development programs do not continue, poppy cultivation
might return. According to the UNODC Afghanistan Opium Survey 2009, Kandahar—
the only critical southern province not covered by an alternative development program in
2008—was the southern province with the largest increase in hectares of poppy
cultivation. The 2009 harvest increased by 35 percent over 2008 levels—an increase of
5,100 hectares. However, the last time Kandahar received significant alternative
development coverage (fall 2007), the UNODC reported a reduction in the poppy harvest
of 12 percent or approximately 2,000 hectares. Access to alternative development
programs is only one of many factors for successful declines in poppy harvest.
Nevertheless, the UNODC’s Afghanistan Opium Survey 2008 noted that in southern and
western provinces, farmers tend to cultivate opium poppy because of the high profits to
be made and the chance to alleviate their poverty. Reducing poverty is a goal of
alternative development programs, and although economic gains from alternative
sources of income, such as alternative crops and permanent employment opportunities,
do not completely replace opium income, key stakeholders commented that these

                                                                                      11
alternatives provide sufficient income to act as an incentive to not grow poppy. Finally,
the mission stated that farmers with fruit trees and vines are less likely to tear these out
and switch to poppy because of the difficulty in reestablishing the trees and vines, which
ultimately do compete with poppy for providing sufficient incomes. The mission also
commented that the goal of alternative development programs was not only the
introduction of alternative crops but also economic alternatives that may be outside the
agriculture sector.

Finally, alternative development programs add to the economic stability of the affected
regions and contribute directly to the success of the U.S. Government’s
counterinsurgency strategy.       According to one provincial reconstruction team
commander we interviewed, although the military can provide short-term stability through
cash-for-work projects and distribution of some agricultural inputs (such as seeds) under
its Commander’s Emergency Response Program, the regions need an alternative
development program that focuses on long-term economic growth.

Although some of the issues affecting the sustainability of the poppy reductions are
beyond the mission’s control, we are nonetheless making the following recommendation:

   Recommendation 1. We recommend that USAID/Afghanistan develop an
   implementation plan for follow-on alternative development activities to cover
   critical southern and western provinces.

Program Implementation
Experienced Delays and
Faces Future Challenges
Summary. According to the contract, the contractor was expected to achieve certain
targets for specified indicators within the first 100 days of the program. Furthermore, the
first year performance management plan contained targets that were expected to be met
in the first-year. However, because of the delays described below, the contractor was
not able to meet its targets for several indicators within the first 100 days or the first year
of the program. Changes in mission operations added new challenges that must be
managed to avoid further implementation delays. These challenges include a new,
Embassy-led annual program review process, the restructuring of the regional
commands, and the mission’s plan to implement regional platforms. The program did
not achieve all of its intended targets because of a delay in startup of the program and
lack of focus for cash-for-work projects. The program did not deliver on key deliverables
and thus did not have as great an impact as it might have had in its first year. In terms
of the future challenges, the organizational changes being implemented by the mission
could affect the implementation of the program and delivery of services in the future.

According to the contract, the contractor was supposed to achieve certain targets for
specified indicators within the first 100 days of the program. Furthermore, the first year’s
performance management plan contained targets for specified performance indicators
for the first year of the program.

However, the contractor met almost none of its targets for the first 100 days or the first
year of the program. For example, one of the goals during the first 100 days was to train
2,000 farmers in new agricultural techniques, yet the contractor trained only 700 farmers.

                                                                                            12
Further, the program did not achieve its targets on several first-year indicators. For
example, the program was to increase sales of program-assisted agricultural value
chains by $1 million, yet it delivered only about $500,000. In terms of opening new
hectares for irrigation, as a result of canal rehabilitations through cash-for-work projects,
the program also fell short by opening up only 1,442 hectares—far short of the 10,000-
hectare target. The table below summarizes selected indicator targets and results.
Appendix III identifies the targets and achieved results for the first 100 days and first
year of the program and life of project through December 31, 2009.

                            Table 3: Selected Targets and Results for 

                                  First 100 days and First Year 


                                                                                Program Year 1
                      Indicators                       First 100 Days
                                                                            (April 2008– March 2009)
                                                      Target   Actual          Target         Actual
Value (U.S.$) of sales of assisted value-chain
                                                        N/A        N/A          1,000,000     510,423
products

Structures built or rehabilitated                         15        13                   42       31

Village members employed                               2,000     1,265                  N/A      N/A

Farmers trained                                        2,000       700              6,000       3,744

New technologies or practices made available            N/A        N/A                   10            9

Hectares of crops supported                             N/A        N/A             10,000       1,442

Farmer organizations assisted                           N/A        N/A                   20       78

New varieties or technique introduction programs
under way in at least five communities in each             5            0               N/A      N/A
province

Farmers given advance contracts (M/F)                   N/A        N/A              1,000              0

Agribusiness firms engaged in expanding capacity to
                                                          40            1               N/A      N/A
meet market opportunities


The program did not achieve its intended targets for a variety of reasons, including a
delay in the program’s startup and lack of focus for its cash-for-work projects.
Furthermore, changes in mission operations added challenges that must be managed to
avoid further implementation delays.

•	 Program Startup Delays. According to the contractor and the mission, several
   factors delayed the start of the program—specifically, a change in provincial focus by
   the mission and a deterioration in security. The original contract emphasized work in
   the northern provinces. However, subsequent to the award, the mission required the
   contractor to establish its office in the western province of Farah, rather than in the
   northern province of Balkh as originally planned. Additionally the contractor was
   asked to focus its first-year efforts in Farah Province. However, the contractor said it
   was not prepared to establish an office in Farah because its plan, included in its
   accepted proposal, was to establish a base of operations in Balkh, where security
   was better and fewer security precautions were required. Key personnel did not

                                                                                                   13
   want to move to Farah because of the security situation, and the contractor could not
   readily find local staff with sufficient capacity to assist in program implementation
   For example, upon learning of the shift from Balkh to Farah, the contractor had to
   restart the search for a new senior civil engineer to replace the proposed candidate,
   who had refused to move to Farah.

   In addition, the deteriorating security situation in Farah restricted the contractor from
   moving around Farah Province to implement its projects under the program. For
   example, after an attack on the contractor’s deputy chief of party convoy in May
   2008, the contractor was put under lockdown for a day, and movements were
   restricted to a 15-kilometer radius around Farah City until July 2008, when the
   working radius was decreased to 10 kilometers. Additional lockdowns were issued in
   June 2008. During the first year of the contract, security concerns caused expatriate
   staff to live on the provincial reconstruction team compound. In retrospect, the
   contractor recognized that the decision to move off the provincial reconstruction team
   compound had taken too long and had impeded program implementation.

•	 Cash-for-Work Projects. The mission, the contractor, and at least one provincial
   governor said that, implementation of the original cash-for-work projects lacked
   focus. Instead of selecting projects from a list of provincial development council
   priorities, projects were selected on the basis of promises made by a former chief of
   party. These projects were not integrated into an overall plan to develop alternatives
   to poppy or to improve existing agricultural irrigation, and they generally represented
   smaller projects that should have been done by the local government. For example,
   from May to June 2008, the contractor worked on a 10-kilometer Abdula Karman–
   Dahna Kohdanak gravel road. While this road provided jobs to local workers, it did
   not directly contribute to the goals of the program. In fact, small-scale projects such
   as this caused the program to fall 8,558 hectares short of achieving its first-year
   target for opening new hectares for irrigation through cash-for-work canal
   rehabilitation projects. In February 2009, the mission directed the contractor to
   review its cash-for-work project. The contractor has revised its approach and now
   coordinates its cash-for-work project selections with provincial development council
   priorities that best support alternative crops.




       Before (left) and after (right) pictures of the Tewask canal. The Tewask Canal
       Rehabilitation Project was a cash-for-work project. Photos show the canal cleared of
       vegetation and widened, allowing for better water flow. Photos courtesy of ARD.


                                                                                              14
•	 Future Challenges. Although the program has evolved and dealt with early
   implementation issues, it faces challenges in the future that, if not properly managed,
   could delay program implementation even more. Specifically, the mission has
   revised its process for approving continuation of existing programs, and the mission
   will mirror the International Security Assistance Force’s reorganization of its
   commands.

   Annual Review Process. Because of the confusion surrounding the U.S. Embassy’s
   annual program review process, the program almost ran out of funds in January
   2010. Beginning in April 2009, the Embassy has required annual review of all
   programs to ensure that they still contribute to the Embassy’s overall goals for the
   country. The review and approval process involves completion of standard forms
   that document a description of the activity to be funded, contribution of the activity to
   the U.S. Government’s counterinsurgency strategy, contribution to Afghanistan, prior
   results, and expected results for additional funding. Requests are submitted through
   USAID/Afghanistan’s Office of Program and Project Development for initial reviews
   by the deputy mission director and the staff of the coordinating director for
   Development and Economic Affairs. Once the initial reviews are completed, the
   forms are sent for approval to the USAID mission director, the U.S. Ambassador for
   Coordinating Director Development and Economic Affairs, the Deputy U.S.
   Ambassador, and finally the U.S. Ambassador.

   The review of the program took place because the contracting officer’s technical
   representative (COTR) had requested incremental funding. Although the typical
   review process takes 7 to 21 days, sometimes it has taken up to a month. In this
   case the program almost ran out of funding at the end of January 2010 because the
   COTR was not aware of the mission’s procedure for gaining Embassy approval. In
   fact, in September 2009, the COTR had obtained incremental funding that bypassed
   the Embassy’s process entirely. Having received incremental funding in the past, the
   Office of Agriculture assumed that the annual review had taken place, not aware that
   the process had been bypassed in September 2009. Therefore, in January 2010,
   when the COTR requested incremental funding of $10 million, the Office of
   Agriculture assumed that it did not need to go through the Embassy’s review
   process. However, when it was discovered that the process had been bypassed, the
   appropriate paperwork was finally prepared and submitted on January 10, 2010, for
   approval. Final approval was obtained from the Ambassador 5 weeks later, on
   February 17, 2010. To ensure that the contractor would not stop implementing the
   program, an emergency incremental funding extension of $2 million was processed
   before the Ambassador issued final approval.

   The COTR was unaware of the required process because he was stationed at a
   provincial reconstruction team and did not receive the guidance issued by
   USAID/Afghanistan’s Office of Program and Project Development. According to that
   office, the mission acknowledges past problems and is refining and centralizing the
   review process within the mission. The mission plans to send monthly e-mails to
   technical office directors on programs requiring reauthorization. The Office of
   Program and Project Development suggested that as more COTRs are put in the
   field, each technical office should assign one individual to handle the preparation and
   coordination of all the approval requests.



                                                                                         15
Reorganization. According to the mission, the restructuring of the International
Security Assistance Force’s regional commands and the mission’s plan to implement
regional platforms at various commands could affect program implementation as
well. Further, the Office of Agriculture is concerned that as more employees are
deployed to the field to staff the mission’s regional platforms, the assigned field
program officers may attempt to direct implementing partner staff.

One of the COTR’s responsibilities is to coordinate with all personnel (military and
civilian) in the field. When the program began, the COTR had to coordinate with four
organizations: one regional command (RC-South) and three provincial reconstruction
teams. Recently, Farah Province has been moved from RC-South to RC-West. In
addition, RC-South will be split into two separate regional commands: one containing
the Provinces of Kandahar, Day Kundi, Zabul, and Uruzgan, and British-controlled
parts of Helmand called RC-South, and the other containing American-controlled
portions of Helmand and Nimroz called RC-Southwest. The mission plans to have
employees at each of the regional commands, including technical and management
staff. In addition, Helmand Province will be split into two provincial reconstruction
teams, one British and one American. Further, the mission, in conjunction with the
Embassy, plans to have district-level support teams. Instead of the past coordination
with four organizations, in the future the COTR will have to coordinate with three
regional commands, four provincial reconstruction teams, regional platform
personnel, and up to eight district teams. The COTR is concerned that he will spend
more time coordinating with these entities than delivering results.




        In Farah Province, chickens are distributed to women who are trained to
        raise chickens for eggs and meat. Photo courtesy of ARD.



Additionally, as the regional platforms and district teams are created, the Office of
Agriculture is concerned that new field program officers stationed in the field will
attempt to direct implementing partners without COTR permission and possibly make
commitments to contractors outside the contract terms. Under the program, field

                                                                                  16
   program officers are formally assigned as activity managers and receive activity
   manager designation letters, which state that they will work through the COTR or will
   be given technical directives as to their responsibilities. Activity managers provide
   valuable information to the COTR, such as site visit reports on program activities.
   However, according to the mission’s Office of Acquisition and Assistance, while all
   COTRs within the mission are required to sign designation letters that outline their
   responsibilities, there is no standard designation letter for activity managers, and the
   use of these letters for activity managers is left up to the discretion of various
   technical offices. The COTR designation letters also include attachments related to
   mission policies in regard to making unauthorized commitments and funds control
   violations.

In summary, as a result of the delays during the initial implementation of the program,
targets were not achieved for specific indicators during the first 100 days and first year of
the program, as displayed in Appendix III. Because of the delay in achieving targets for
specific indicators that could affect the reduction of poppy harvest, the program did not
have as large an impact as it might have. In terms of the future challenges, although the
COTR has no quantifiable difficulties resulting from the extra coordination, these
complications might affect implementation of the program. Further, although the current
activity managers understand their responsibilities, future managers might make
unauthorized commitments that would result in funds-control violations as the mission
deploys more staff to the field to act as activity managers under other programs and
assist in monitoring programs.

Although the earlier implementation issues have been resolved, we are making the
following recommendations to help the mission manage its future challenges:

   Recommendation 2.         We recommend that USAID/Afghanistan officially
   designate a specific position within each technical office to handle the
   preparation and coordination of Embassy program approval requests.

   Recommendation 3.          We recommend that USAID/Afghanistan develop
   procedures requiring an activity manager designation letter for all activity
   managers, outlining the responsibilities of the activity manager and including
   relevant mission orders related to making unauthorized commitments and funds
   control violations.




                                                                                          17
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Afghanistan concurred with all three
recommendations. The Office of Inspector General reviewed the mission’s response to
the draft report and determined that a management decision has been reached on
Recommendations 1, 2, and 3. Determinations of final action will be made by the Audit
Performance and Compliance Division upon completion of the planned correction
actions.

The status of each of the three recommendations is discussed below.

In response to Recommendation 1, USAID/Afghanistan stated that the mission’s Office
of Agriculture started development on follow-on agriculture programs that will deliver
alternative development activities in the southern and western provinces of Afghanistan.
The mission is in the process of implementing two programs that will address this issue.
These programs are the Agriculture Development for the South Program, which is
expected to be awarded by early September 2010, and the Agriculture Credit
Enhancement Program, which has a target execution date of August 15, 2010. The
mission expects actions to be completed by early September 2010.

In response to Recommendation 2, the mission has designated one officer from the
Office of Program and Project Development to be responsible for the preparation and
coordination of all project reviews. This officer coordinates with each technical office
director to ensure that the appropriate contract officer’s or agreement officer’s technical
representative completes the review documentation in a timely manor. Additionally, an
extensive review of all the mission programs was conducted to determine which
programs are due for 1-year reviews. On the basis of this review a schedule for
upcoming 1-year reviews was prepared. Lastly, by September 2010, the mission will
formalize the procedures described above by issuing Mission Order 201.1, “Project and
Activity Approval under Strategic Objectives and Amendments.” The mission expects
action to be completed by September 1, 2010.

In response to Recommendation 3, the mission has drafted and is currently finalizing
Mission Order 103, which addresses the role and responsibilities of activity managers.
The mission expects action to be completed by August 15, 2010.




                                                                                        18
                                                                            APPENDIX I




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s Alternative Development Program Expansion, South
West, was achieving its main goal of counteracting illicit poppy cultivation by providing
alternative development programs and improved economic opportunities in selected
southern and western provinces.

In March 2008 USAID/Afghanistan awarded a 2-year, $55 million contract to ARD, Inc.,
to implement the Alternative Development Program Expansion, North and West. The
goal of the program was to counteract illicit poppy cultivation by providing alternative
livelihood programs, improved economic opportunities, and diverse regional economic
growth in selected areas in Balkh, Jawzjan, Farah, and Ghor Provinces in Afghanistan.
In January 2009, USAID/Afghanistan expanded the scope of work to include the
provinces of Helmand, Uruzgan, and Nimroz effectively eliminating Balkh, Jawzjan, and
Ghor Provinces; expanded the performance period to 3 years; and increased the
contract ceiling price to $75 million. Subsequently the program name was changed to
Alternative Development Program Expansion, South West (the program). As of
December 31, 2009, USAID/Afghanistan had obligated $30 million and disbursed $25
million for program activities.

The audit was performed in Afghanistan from January 28 to February 25, 2010, and
covered the program’s activities implemented by the contractor from March 5, 2008, to
December 31, 2009. In Kabul, fieldwork was conducted at USAID/Afghanistan, at the
contractor’s home office, and with representatives from the Department of State’s
Bureau of International Narcotics and Law Enforcement Affairs and the Drug
Enforcement Administration at the U.S. Embassy. Site visits were conducted in the
province of Farah; at the Tewask Canal cash-for-work project site, Tewask village, the
Farah Department of Agriculture, Irrigation and Livestock offices, and the Farah
governor’s residence compound.

As part of the audit, we assessed the significant internal controls used by
USAID/Afghanistan to monitor program activities. The assessment included controls
related to whether the mission had (1) conducted and documented site visits to evaluate
progress and monitor quality, (2) required and approved an implementation plan,
(3) reviewed progress reports submitted by the contractor, and (4) compared reported
progress to planned progress and the mission’s own evaluations of progress. We
reviewed invoices totaling $11.6 million from the total $25 million disbursed for program
activities for compliance with the mission’s established review processes. We also
reviewed the mission’s Federal Managers’ Financial Integrity Act report for fiscal year
2008 and prior audit reports for any issues related to the audit objective.



                                                                                      19
Methodology
To answer the audit objective, we interviewed officials from USAID/Afghanistan, the
contractor (ARD Inc.), subcontractors, and ministry officials. We also reviewed and
analyzed relevant documents at the mission and the contractor’s office. This
documentation included performance management plans and the contract between
USAID/Afghanistan and the contractor. Furthermore, we reviewed contractor site visit
and other monitoring reports, progress reports, and financial records.

To determine the reliability of computer-processed data received from the mission in
support of its obligated and disbursed amounts, we reviewed prior audits of the mission’s
financial statements and internal controls. In addition, to verify the data used by ARD in
its performance reports, we obtained an understanding of the ARD internal controls in
place over the monitoring, collection, and verification of results and tested these controls
by verifying a judgmental sample of supporting documentation to reported results.
Furthermore, we verified results through site visits to selected project sites. Since the
testing was based on a judgmental―not statistical―sample, the results and overall
conclusions related to this analysis were limited to the items tested and could not be
projected to the entire audit universe. To determine the impact of program activities on
poppy production within Afghanistan, we relied on UNODC’s Afghanistan Opium
Surveys for 2008 and 2009 and UNODC’s Afghanistan Opium Survey 2010, Winter
Rapid Assessment, February 2010.




                                                                                         20
                                                                           APPENDIX II




MANAGEMENT COMMENTS



MEMORANDUM 


TO:           Bruce N. Boyer, Regional Inspector General/Manila

From:         Earl W. Gast, Mission Director, USAID/Afghanistan /s/

DATE:         July 1, 2010

SUBJECT:      Audit of USAID/Afghanistan’s Alternative Development Program
              Expansion—South West (Audit Report No. 5-306-10-00X-P)

REFERENCE: BBoyer/WFrej memo dated June 8, 2010

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the audit team. We are providing
confirmation of the actions that have been taken or are planned to be taken to address
the recommendations in the draft audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No 1: We recommend that USAID/Afghanistan develop an
implementation plan for follow-on alternative development activities to cover
critical southern and western provinces.

The Mission agrees with the recommendation.

Actions Taken:

In January 2010 the Office of Agriculture (OAG) began developing follow-on agriculture
programs that will deliver alternative development activities in Southern and Western
Provinces. The program descriptions, locations and expected funding are as follows:

Agriculture Development for the South (ADS- for RC/South and
RC/Southwest a $450 million multi-year program). A solicitation for proposals
was published on May 6, 2010 (See Attachment No. 1) for a new multi-year
agriculture program to provide: a) a follow-on to the AVIPA stabilization activities
(cash-for-work, vouchers, grant-in-kind); and b) long-term agricultural
development activities focused on value-chain development (“field to plate”) and
local construction of the necessary supporting agricultural infrastructure such as


                                                                                     21
agricultural feeder-roads, whole sale markets, and irrigation. Proposals were
received on June 6, 2010 and are now under review in collaboration with the
Ministry of Agriculture, Irrigation, and Livestock (MAIL) as well as USG field staff.
This new project should be awarded by end of August/early September with the
implementer mobilized to Afghanistan by late September.

Agriculture Credit Enhancement (ACE – nationwide program $150 million;
2010-2013). The new ACE program, of which the Agriculture Development Fund
(ADF) is a key component, will improve agricultural productivity, upgrade high-
potential value chains, and develop new markets for Afghan produce, while
increasing access to credit for agriculture-related investment and building the
capacity of financial institutions and other intermediaries to sustainably provide
rural and agricultural credit. The ADF will promote lending throughout the
agricultural value chain by a broad range of participating intermediaries, including
banks and non-bank financial institutions (e.g., credit unions, agriculture input
dealers), many of whom operate in the South and West. The target date for
execution of ADF project is August 15, 2010. The ACE and ADF concept paper is
in attachment # 2.

Based on the above, the Mission deems that corrective actions have been taken to
address this recommendation and a management decision has been reached.
Therefore, the Mission requests RIG’s concurrence to the management decision and
closure of this recommendation.

Recommendation No 2: We recommend that USAID/Afghanistan officially
designate a specific position within each technical office to handle the preparation
and coordination of Embassy program approval requests.

The Mission agrees with the recommendation.

Actions Taken:

Since March 2010, USAID/Afghanistan has undertaken three steps to further improve
the Project Review Process: First of all, the Mission has designated one officer in the
Office of Program and Project Development (OPPD) to be responsible for preparation
and coordination of all Project Reviews. The officer’s responsibilities include verifying
which projects are due for one year reviews; ensuring that technical offices complete
Project Review sheets in a timely manner; overseeing the quality control of the sheets;
and tracking the clearance and approval process with all necessary Embassy offices.
OPPD has ensured that the officer has a back-up in the event that the officer is
temporarily unavailable, for example, due to rest breaks. Secondly, the OPPD officer in
charge of the Project Review Process directly coordinates upcoming reviews with one
point person in each technical office, namely the technical office director, who will be
accountable for ensuring that the office’s relevant COTR or AOTR completes the review
sheet in a timely manner – whether the COTR/AOTR is located in Kabul or in the field.
Third, in June 2010, the designated officer in OPPD conducted an extensive inventory of
all Mission programs to determine which are due for one-year review and, based on this
inventory, established a specific schedule for upcoming one-year reviews.




                                                                                      22
Planned Actions:

By September 1, 2010, the Mission will officially institute the above first two steps into
Mission Order 201.01, entitled “Project and Activity Approval under Strategic Objectives
and Amendments.”

Based on the above, the Mission deems that corrective actions are being taken to
address this recommendation and a management decision has been reached.
Therefore, we request RIG/M’s concurrence.


Recommendation No. 3: We recommend that USAID/Afghanistan develop
procedures requiring an activity manager designation letter for all activity
managers, outlining the responsibilities of the activity manager and including
relevant mission orders related to making unauthorized commitments and funds
control violations.

The Mission agrees with the recommendation.

Actions Taken:

The Mission has drafted Mission Order #103 that addresses the role and responsibilities
of activity managers in USAID/Afghanistan project monitoring and includes a sample
designation letter. It is currently being circulated within the mission for comments and
clearances. The estimated date for release of the final Mission Order is August 15,
2010.

Based on the above the Mission deems that corrective actions are being taken to
address this recommendation and a management decision has been reached.
Therefore, we request RIG/M’s concurrence.



Attachments

Attachment No. 1: Annual Program Statement for Addressing Short-Term Stabilization
and Long-Term Development Objectives through Revitalization of Afghan Agriculture
Attachment No. 2: ADF/ACE Concept Paper




                                                                                        23
                                                                                                                      APPENDIX III





Table A-1. Indicators, Targets, and Actual Results for the First 100 Days of the Program, First Year, and Life of Project Through
December 31, 2009


                                                                                                          Program Year 1              Life of Project Through
                                      Indicators                                First 100 Days
                                                                                                      (April 2008–March 2009)           December 31, 2009 

                                                                               Target       Actual      Target           Actual        Target        Actual
 Value (US$) of sales of assisted value-chain products                             N/A         N/A      1,000,000         510,423      7,993,150     3,789,962

 Structures built or rehabilitated                                                  15           13              42           31             251              45

 Village members employed                                                        2,000       1,265            N/A            N/A             N/A          N/A

 Hectares converted to target value-chain crops                                    N/A         N/A          3,000           1,442         10,085         3,648

 Farmers trained                                                                 2,000         700          6,000           3,744         22,500        11,314

 New technologies or practices made available                                      N/A         N/A               10               9             94            29

 Hectares of crops supported (includes those supported by canal/karez rehab)       N/A         N/A         10,000           1,442         39,750        17,859

 Hectares under improved technologies or practices                                 N/A         N/A          6,000           1,442         21,430         4,115

 Farmer organizations assisted                                                     N/A         N/A               20           78                85        163

 Contract farming business plans approved and under execution, targeting at
                                                                                        2        0            N/A            N/A             N/A          N/A
 least 400 participating farmers in Farah
 New varieties or technique introduction programs under way in at least five
                                                                                        5        0            N/A            N/A             N/A          N/A
 communities in each province

 Farmers given advance contracts                                                   N/A         N/A          1,000                 0        3,850          142

 Public-private partnerships facilitated                                           N/A         N/A               5                0             34              2

 Marketing/collection points developed                                             N/A         N/A               5                0             67            20




                                                                                                                                                           24
                                                                                                           Program Year 1           Life of Project Through
                                  Indicators                                      First 100 Days
                                                                                                       (April 2008–March 2009)        December 31, 2009 

                                                                                 Target     Actual       Target        Actual        Target        Actual

Value-adding technologies/practices introduced                                       N/A       N/A                4             2             44            12

Micro- and small and medium enterprises (SMEs) participating in assisted value
                                                                                     N/A       N/A                15            1          111                2
chains

SMEs accessing bank loans or private equity                                          N/A       N/A                5             0             49              0

Agribusiness firms engaged in expanding capacity to meet market opportunities         40           1           N/A         N/A             N/A          N/A




                                                                                                                                                         25
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel.: 202-712-1150 

             Fax: 202-216-3047 

            www.usaid.gov/oig
